MANAGEMENT OF INFORMATION TECHNOLOGY EQUIPMENT,
       OFFICE OF THE SECRETARY OF DEFENSE


Report No. D-2001-096                   April 9, 2001




             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
AIRM                  Automated Information Resource Management
ASD(C3I)              Assistant Secretary of Defense (Command, Control,
                         Communications, and Intelligence)
CIO                   Chief Information Officer
ITE                   Information Technology Equipment
OSD                   Office of the Secretary of Defense
WHS                   Washington Headquarters Services
                       Office of the Inspector General, DoD
Report No. D-2001-096                                                      April 9, 2001
  (Project No. D2001FA-0040)

           Management of Information Technology Equipment,
                  Office of the Secretary of Defense

                                Executive Summary

Introduction. An Inspector General, DoD, Report of Investigation issued on
August 28, 2000, indicated that the investigation was complicated by incomplete Office
of the Secretary of Defense (OSD) inventory records for information technology
equipment, such as personal computers. In addition, the investigation identified
security issues concerning the disposal of personal computer hard drives. As a result,
we initiated an audit of information technology equipment management at the OSD.

The Director, Washington Headquarters Services (WHS) is responsible for managing
the information technology equipment program for the OSD, the WHS, and other
assigned DoD activities. The Director, Information Operations and Reports, WHS, is
responsible for reviewing automated information systems requirements for those
organizations and ensuring that DoD standardization, interoperability, security, and
information-sharing requirements are met. Also, the Director, Information Operations
and Reports, has the responsibility to maintain and operate an automated centralized
inventory control system that is compatible with other DoD-wide inventory systems.
The WHS system included records for about 34,000 items of information technology
equipment with a total value of $99.8 million. The inventory of information technology
equipment included central processing units, hard drives, personal computers, and
computer monitors.

Objectives. Our objective was to evaluate the management of information technology
equipment in the possession of the OSD. Specifically, we tested the existence and
completeness of information technology equipment databases and other records used to
control equipment within the OSD. Existence tests measure the ability to physically
locate the equipment recorded on the information technology inventory databases.
Completeness tests ascertained whether equipment located in OSD work spaces was
recorded on the information technology inventory databases. We also assessed the
management control program as it relates to the overall objective.

Results. The Office of the Secretary of Defense information technology equipment
management practices and controls needed improvement. Although WHS has reported
progress over the last several years in improving inventory records, more needs to be
done. Based on a physical inventory test of sample items, we statistically estimated that
of about 34,000 items of information technology equipment, 2,790, or 8 percent, of the
items would not be found after a reasonable search was performed, and that an
estimated 7,859, or 23 percent, of the inventory records would contain inaccurate
information. Also, to test the completeness of the inventory records, we selected 635
pieces of equipment from the OSD work spaces and determined that 51 items were not
included on any inventory record. We also identified security vulnerabilities related to
the disposal of OSD computers containing sensitive information and the inappropriate
use of personal digital devices in secure classified areas. As a result, the OSD risked
the loss of computer equipment and the disclosure of sensitive and classified
information. See Appendix A for details on the review of the management control
program.

Management Actions. During the audit, we provided two memorandums to the
Deputy Secretary of Defense to advise of weaknesses in computer disposal operations
and problems with the inventory management of information technology equipment.
We also made six recommendations to improve inventory management. The Deputy
Secretary of Defense responded to each memorandum and directed the Assistant
Secretary of Defense (Command, Control, Communications, and Intelligence) to
implement the audit recommendations and to take immediate action to correct the
problems. Subsequently, the DoD Chief Information Officer Executive Board
established a working group to review issues and refine the policy related to the Deputy
Secretary of Defense direction to destroy DoD computers hard drives prior to disposal.
See Appendix B for copies of the Deputy Secretary of Defense guidance.

Summary of Recommendations. We recommend that the Assistant Secretary of
Defense (Command, Control, Communications, and Intelligence) establish a time-
phased plan to implement the corrective actions directed by the Deputy Secretary of
Defense during the audit, and to develop policy regarding the proper use of current
technology items, such as personal digital devices, with secured classified computers.

Management Comments. The Deputy Assistant Secretary of Defense, Command,
Control, Communications, and Intelligence acknowledged the concurrence of the
Deputy Secretary of Defense to the audit report findings and recommendations. The
Deputy Assistant Secretary stated that actions were underway to develop a time-phased
implementation plan for the recommendations and to provide for the DoD Chief
Information Officer to serve as the OSD Chief Information Officer. The Deputy
Assistant Secretary stated that further analysis might lead to alternative actions, as did
the Director, Washington Headquarters Services. The Director, Policy Automation,
Office of the Deputy Under Secretary of Defense Policy Support, expressed concerns
with the accuracy of the data in the report. See the Finding section for a discussion of
the management comments and the Management Comments section for the complete
text of the comments.

Audit Response. Management comments were generally responsive. We agree that
there could be cost effective alternatives to some recommendations. However, the
Deputy Secretary of Defense clearly committed DoD to seeking further inventory
management improvement and reducing security risks associated with the loss of
computers and hard drives containing sensitive data. We met with a representative of
the Director, Policy Automation, and demonstrated that there was no basis for concern
regarding the accuracy of the data in the report. We request that the Assistant
                                           ii
Secretary of Defense (Command, Control, Communications, and Intelligence) inform
us by June 8, 2001, on when the implementation plan will be complete and what
alternative actions, if any, have been approved.




                                        iii
Table of Contents

Executive Summary                                                            i

Introduction
     Background                                                              1
     Objectives                                                              1

Finding
     Management of Information Technology Equipment                          2

Appendixes
     A. Audit Process
         Scope                                                              10
         Methodology                                                        10
         Statistical Sampling Methodology                                   11
         Management Control Program Review                                  12
         Prior Coverage                                                     12
     B. Deputy Secretary of Defense Responses to the Inspector General,
         DoD, Preliminary Findings and Recommendations                      13
     C. Component Organizations of the Office of the Secretary of Defense
         Visited During the Audit                                           16
     D. Report Distribution                                                 18

Management Comments
     Assistant Secretary of Defense (Command, Control, Communications,
       and Intelligence)                                                    21
     Washington Headquarters Services                                       22
     Under Secretary of Defense for Policy                                  24
Background
     Office of the Secretary of Defense (OSD). The OSD is the principal staff
     element of the Secretary of Defense in the exercise of policy development,
     planning, resource management, and fiscal and program evaluation
     responsibilities. The OSD includes four Under Secretaries of Defense, five
     Assistant Secretaries of Defense, and other organizations. (See Appendix C for
     a list of OSD components visited during the audit.) As of November 30, 2000,
     OSD included 1,815 civilian personnel, 755 military personnel, and
     1,638 contractor manyears. Overall administrative support is provided by the
     Washington Headquarters Service (WHS) under the Director for Administration
     and Management. WHS provides broad support for OSD organizations to
     include maintaining centralized information technology equipment (ITE)
     inventory records. WHS issues administrative instructions providing guidance
     to other organizations for ITE functions. The individual OSD organizations
     periodically update the WHS ITE inventory database while also maintaining
     their own inventory records.
     Administrative Instruction No. 56. Administrative Instruction No. 56,
     “Automated Information Resource Management (AIRM) in the Office of the
     Secretary of Defense and Washington Headquarters Services,” August 20,
     1991, provides guidance for AIRM support to OSD and the WHS. The
     instruction generally covers the AIRM program. The instruction assigns WHS
     responsibility for maintaining and operating an automated centralized inventory
     control system that is compatible with the DoD-wide inventory system and
     meets the needs of Defense Information Systems Agency in accomplishing its
     ITE mission.
     Automated Data Processing Resources Management. DoD Directive 7950.1,
     “Automated Data Processing Resources Management,” September 29, 1980,
     provides policy guidance on the management and reporting of automatic data
     processing resources within the OSD and DoD Components. That directive was
     implemented by DoD 7950.1-M, “Defense Automation Resources Management
     Manual,” September 1988, which provides consistent procedures, standards,
     policies, definitions, and requirements governing the redistribution, sharing, and
     inventorying of automation assets. The manual applies to all DoD Components.

Objectives
     Our objective was to determine whether information technology equipment in
     the possession of the OSD was adequately managed. Work on this project
     included verifying existence and completeness of information technology
     equipment databases and other records used to control equipment within the
     OSD. We also assessed the management control program as it relates to the
     overall objective. See Appendix A for a discussion of the audit scope and
     methodology, our review of the management control program, and prior audit
     coverage, related to the audit objectives.


                                         1
            Management of Information Technology
            Equipment
            The OSD practices and controls for managing ITE needed improvement.
            Based on a statistical test for existence and a nonstatistical test for
            completeness, ITE inventory records were incomplete and inaccurate.
            The existence test consisted of a physical inventory of statistically
            selected ITE items from a universe of about 34,000 items. The results of
            the existence test projected that an estimated 2,790 (8 percent) ITE items
            would not be located if a full inventory were conducted. The
            completeness test showed that of 635 ITE items judgmentally selected
            from OSD work spaces, 51 (8 percent) ITE items were not included on
            any OSD inventory records. In addition, we estimated that the records
            for 7,859 (23 percent) ITE items contained critical inventory data errors.
            In addition, security problems were identified when computers
            containing sensitive information were marked for reutilization outside of
            the DoD, and personal digital devices were used inappropriately in
            secure classified areas. The problems occurred because there was no
            single authority, such as a Chief Information Officer (CIO), managing
            the information technology equipment within the OSD. A CIO would
            have had the responsibility for ensuring that the OSD developed and
            implemented management controls related to an integrated, consistent
            process for receiving, recording, and disposing of information
            technology equipment. As a result, the OSD was at risk for the loss of
            computer equipment and the loss of sensitive and classified information.



Inventory Tests
     The WHS maintains a centralized database of ITE owned by OSD. The
     database included about 34,000 ITE items such as central processing units, hard
     drives, personal computers, and computer monitors and was updated every 6
     months by OSD component organizations. Our audit included two tests to
     measure the existence and completeness of overall inventory database accuracy.
     Existence tests measured the ability to physically locate the equipment recorded
     on the information technology inventory databases. Completeness tests
     ascertained whether equipment located in OSD work spaces was recorded on the
     information technology inventory databases.

            Existence Test Results. We statistically sampled items from the
     34,000 pieces of information technology equipment listed in the WHS active
     property database as of October 2, 2000. We conducted a physical inventory to
     determine whether OSD components could locate 635 selected items. The
     projected results of the existence test are provided in Table 1.




                                        2
                   Table 1. Projected Existence Test Results



      ITE Database           Estimated Number of          Estimated Number of
        Universe               Items Not Found         Significant ITE Data Errors

         33,889                      2,790                        7,859



Based on the results of our statistical sampling, we estimated that about 2,790
(8 percent) ITE items would not be located if a complete wall-to-wall inventory
was taken. Among the specific items in our sample not located were personal
computers, laptops, and hard drives. For those items that were located, we
verified that database information such as the location, serial number, bar code,
and other identifying information of ITE were reported correctly in the WHS
databases. We estimated that data errors would exist in the inventory records
for 7,859 (23 percent) of the items. The data errors we noted, such as incorrect
locations, would make it difficult for the OSD to effectively manage the large
quantity of ITE in the database. (See Appendix A for the statistical sampling
methodology and other information related to the existence test.)

        Completeness Test Results. We selected 635 items of ITE on a
nonstatistical basis located in the work spaces visited and determined whether
the items were included on the WHS and component databases. The results are
included in Table 2.

                      Table 2. Completeness Test Results

   Total Work Spaces        Work Spaces ITE not          Work Spaces ITE with
     ITE Reviewed           on any OSD Database              Data Errors

           635                           51                        319



The results showed that 51 (8 percent) of the 635 work space selections, which
included personal computers and laptops, were not recorded on any OSD
database. In addition, 319 (50 percent) of the supporting inventory records for
635 ITE items contained significant data errors on the OSD database. As noted
in the existence test, data errors such as incorrect locations make it difficult to
effectively manage ITE.




                                     3
Single ITE Manager
    The OSD did not have a single, centralized manager for information technology
    equipment within the OSD. A manager, such as a CIO, could have ensured that
    the OSD developed and implemented management controls related to an
    integrated, consistent process for receiving, recording, and disposing of
    information technology equipment. This manager could have also ensured that
    OSD policy and management control procedures for ITE were current and
    implemented by the OSD. At the time of the audit, the Assistant Secretary of
    Defense (Command, Control, Communications, and Intelligence) [ASD(C3I)]
    was only responsible for overall DoD policy related to automated data
    processing equipment and WHS had only limited responsibility for managing
    ITE within the OSD.

    Information Technology Equipment Policies. The ASD(C3I) had not issued
    updated ITE policies for the OSD. The most recent comprehensive policy
    document, DoD Directive 7950.1, was prepared more than 20 years ago, and
    does not reflect the state of information technology in existence at the time of
    this audit. The policy does not cover issues such as the use of personal digital
    devices and the ability of software to recover data on hard drives. The
    ASD(C3I) recognized that the document was outdated and in early FY 2000, a
    draft policy document was prepared but was never issued. We were unable to
    determine the reason for not issuing the policy. As a result of the outdated
    policies, we observed poor security practices within the OSD. For instance,
    during the physical inventory, a personal digital device similar to a palm pilot
    was attached inappropriately to a computer processing unit designated to handle
    classified material. Such a practice can compromise national security because of
    the risk that classified information could be recorded on the personal digital
    device and taken out of the secure area on a nonrestricted device. We reported
    the incident as a potential security violation. Further, an additional 15 personal
    digital devices were observed in restricted classified areas in the OSD.

    Washington Headquarters Services. A single ITE manager with clear
    authority would be able to issue and implement mandatory operating procedures
    and practices. The WHS issued administrative instructions and inventory
    bulletins covering the centralized database records, aspects of excessing
    equipment, and some disposal practices. The bulletins, however, were limited
    in scope, provided guidance that was not often followed and was not mandatory.
    WHS did not believe it had the authority to make its instruction mandatory.
    Each OSD component was expected to create its own policies and procedures
    within the overall guidance issued by WHS.

    Chief Information Officer. The Clinger-Cohen Act of 1996, P.L. (104-106),
    Division E, Sec. 5002(3)(A), (B), and (C) requires all Government agencies to
    appoint a CIO responsible for overall management of automated systems. The
    ASD(C3I) implemented this policy in DoD by requiring DoD Components to
    appoint CIOs; however, implementing instructions were never issued for OSD.
    Like the rest of the DoD, OSD would benefit from having a CIO.


                                        4
Management Control Processes
    The OSD lacked an integrated, consistent management control process for
    receiving ITE and maintaining an ITE inventory database. WHS Administrative
    Instructions generally did not mandate specific procedures for an ITE
    management control process. Each OSD organization was allowed to establish
    specific procedures for controlling ITE.

    Control Process. The practices followed by OSD component organizations
    were not based on centralized or consistent procedures. For example, some
    OSD component organizations used bar coding for controlling inventory and
    others did not. An effective control process should include standard procedures
    for recording equipment in accountability records upon receipt. Such
    procedures would establish a clear record of who is using the equipment, for
    what purpose, and how it is disposed at the end of its useful life. We believe
    that the most effective accountability systems use a single record system and
    uniform policies and procedures for an entire organization.

            Procedures for Receiving Equipment. ITE was being brought into
    OSD locations from multiple entry points. Equipment was delivered to multiple
    storage facilities and sent directly to work spaces. For example, two
    organizations maintained central warehouses for equipment, and one of these
    organizations generally ensured that all equipment was delivered to the
    warehouse. However, the same organization purchased ITE using Government
    credit cards and the ITE was delivered directly to work stations without
    accountability at the central warehouse. Several items from this organization
    could not be located during our audit, and the records for several other items
    contained errors. The use of a single entry point for all equipment would
    greatly increase the ability of the OSD to ensure that equipment was
    appropriately recorded in inventory records, marked, and controlled.

           WHS Inventory Records. Administrative Instruction No. 56 designates
    WHS as the office responsible for maintaining ITE inventory records. WHS
    maintains a database intended to provide a central record of ITE for use in
    meeting information needs of the Defense Information Systems Agency.
    However, the WHS database did not include location and user information, a
    complete history of all equipment, and other information needed to effectively
    manage ITE. WHS updated the centralized database every 6 months using
    information provided by the OSD component organizations. As a result, the
    WHS centralized database did not include current information, especially for
    those organizations that failed to provide updated information. WHS relied on
    each OSD office to maintain separate records with more detailed information.
    There were 14 separate sets of automated inventory records in the OSD.

            OSD Component Inventory Records. The individual OSD component
    inventory records we reviewed generally did not include information showing
    whether the equipment was used to process classified information, the reason for
    removing an item from inventory, and a history of an item from acquisition to
    disposition. Organizations also used different database formats and data
    elements. For example, one OSD organization deleted more than 500 items of
                                       5
    equipment, valued at more than $1 million, from its records in December 1999.
    We were unable to trace any of the equipment in the inventory records to
    determine the reasons recorded for the deletions and history for each item. A
    Defense Protective Service Investigation report covering the matter indicated
    that the items were either lost or removed from OSD locations as a result of
    poor accountability. The actual disposition of the 500 items will never be
    known because the entire record for the deleted items was removed by the OSD
    organization instead of modifying the record to show the reason for the loss.
    The lack of adequate detail, inaccurate and incomplete records, and inconsistent
    database layouts all contributed to poor inventory records.

           WHS Accountability. Although WHS had overall inventory
    responsibility, it had delegated the detailed accountability functions to each OSD
    component. During the period from 1995 to 1999, WHS performed periodic
    inventory spot checks to check the accuracy of OSD records. The results of the
    spot checks showed that most OSD components were improving but ITE
    accountability problems still remained. The WHS spot checks for 2000 were
    not conducted because of our audit. In view of the large numbers of missing
    items, unrecorded items and inaccurate records, a wall-to-wall inventory is
    needed to establish a complete database, with physical inventories taken
    annually to ensure the accuracy of inventory records. The physical inventories
    could be part of the annual management control assessments already required by
    DoD.



OSD Computer Disposal Practices
    OSD disposal practices were not adequate for safeguarding the sensitive
    information residing in DoD computers. OSD did not have current guidance for
    OSD components to follow. The most recent guidance was issued more than
    20 years ago, before many of the technologies commonly in use today were
    available.

    Reutilization of DoD Computers. Until November 2000, the OSD participated
    in a computer reutilization program. The procedures for excessing OSD
    computers call for swiping clean or sanitizing the hard drives of computers that
    do not contain classified information. Our initial visit to the WHS warehouse
    used to store excess OSD computers in the reutilization program resulted in the
    identification of four computers that contained either sensitive or classified
    information on the hard drives. In accordance with existing procedures, the
    owning organizations were supposed to have “swiped” the hard drives clean and
    a WHS official was supposed to have certified that the computers no longer
    contained sensitive or classified information. However, these procedures were
    not followed. In addition, we were also able to use software to reconstruct
    information that was supposedly removed from the hard drives. As a result, the
    disposal of any OSD computer that processes sensitive or classified information
    represents a potential risk.


                                        6
Deputy Secretary of Defense Actions
    On October 31, 2000, we advised the Secretary of Defense of weaknesses in
    OSD computer disposal operations. On November 7, 2000, the Deputy
    Secretary of Defense directed immediate action to correct the weaknesses within
    the OSD and then on January 8, 2001, he directed the destruction of all DoD
    computer hard drives prior to disposal of computers outside of DoD.
    Subsequently, the DoD Chief Information Officer Executive Board established a
    working group to review issues and refine the policy related to the Deputy
    Secretary of Defense direction to destroy DoD computers hard drives prior to
    disposal.

    On December 4, 2000, we advised the Secretary of Defense of weaknesses in
    the inventory management of OSD computer equipment, and provided proposed
    recommendations for corrective action. On December 15, 2000, the Deputy
    Secretary of Defense stated that he wanted to implement the Inspector General’s
    recommendations and directed the ASD(C3I) to take immediate action to correct
    the inventory management problem. (See Appendix B for the three Deputy
    Secretary of Defense Memorandums.) We believe an action plan with
    milestones should be prepared to ensure prompt implementation of the
    recommendations.



Recommendations, Management Comments, Audit Response
    We recommend that the Assistant Secretary of Defense (Command,
    Control, Communications, and Intelligence):

    1. Establish a time-phased plan to implement the recommendations
    directed by the Deputy Secretary of Defense during the audit. The
    recommendations include:

       a. Establish a Chief Information Officer for the Office of the Secretary
    of Defense with responsibility for developing an integrated, consistent
    management control process for managing information technology
    equipment within the Office of the Secretary of Defense;

       b. Rely on a single inventory database and standard process for
    controlling information technology equipment. Replace all existing
    databases with a single database designed to meet the needs of multiple
    users;

       c. Perform a wall-to-wall physical inventory of information technology
    equipment within the Office of the Secretary of Defense and establish
    quality control procedures to ensure that the master database inventory is
    maintained on a real-time basis;


                                       7
   d. Require comprehensive information technology equipment inventory
reviews at least annually, preferably as part of each office’s management
control self-assessments;

   e. Establish a clear chain of custody for equipment, including using
hand receipts signed by the end user of the equipment;

   f. Establish a single entry and exit point for all information technology
equipment, ensuring that all equipment is recorded on inventory records
before release to the user and then is appropriately excessed; and

   g. Implement a policy (as directed by the Deputy Secretary of Defense
memorandum of December 15, 2000) that requires all hard drives of OSD
computers being disposed of outside the DoD be destroyed.
2. Develop policy regarding the proper use of current technology items,
such as personal digital devices, with secure classified computers.

Assistant Secretary of Defense (Command, Control, Communications, and
Intelligence) Comments. The Deputy Assistant Secretary of Defense,
Command, Control, Communications, and Intelligence, and Deputy Chief
Information Officer of DoD acknowledged the concurrence of the Deputy
Secretary of Defense to the audit report findings and recommendations. The
Deputy Assistant Secretary stated that actions were underway to provide for the
DoD CIO to serve as the OSD CIO through updates to DoD Directive 8000.1,
“Management of Department of Defense Information Resources and Information
Technology” and WHS issued updated guidance on January 22, 2001, for
removal of all hard drives prior to surplus turn-ins of excess ITE. The Deputy
Assistant Secretary stated he had concern about the cost to implement several of
the inventory management recommendations, and that his office would follow
investment management guidance while considering the cost benefit of each
recommendation, the potential return on investment, and the affordability to
include the impact on the full life-cycle requirements for acquiring, managing,
and disposing of ITE. Further, as they develop their time-phased
implementation plan, they will evaluate alternatives for satisfying the
recommendations.

As part of these alternatives, on March 6, 2001, the Director of the Washington
Headquarters Services issued policy prohibiting digital devices in Pentagon
Sensitive Compartmented Information Facilities unless digital devices were
modified to prevent data transmission.

Audit Response. The ongoing and proposed actions will benefit the
effectiveness of the ITE management program in the OSD. We request the
Assistant Secretary of Defense (Command, Control, Communications, and
Intelligence) provide additional comments describing when the time-phase
implementation plan will be completed.

Washington Headquarters Services Comments. The Director, Washington
Headquarters Services, provided comments for clarification purposes, and
emphasized inventory management improvements achieved since 1991. The
                                   8
Director stated that the draft report was misleading in stating that the results of
inventory spot checks performed between FY 1995 and FY 1999 showed that
most of the OSD components had accountability problems. Through hard work,
OSD has improved its accountability of ITE based on the results of equipment
existence spot checks from 54 percent in 1995 to 94 percent in 1999. The
results in 1999 were compromised by two OSD components that scored only 78
and 50 percent on the existence spot checks. The Director also commented that
further analysis of alternatives was advisable before commitment to a single
inventory system is made and more resources are applied to achieve marginal
improvement.

Audit Response. We agree that the spot checks indicate improvement in ITE
accountability practices since 1995. However, the value of the pre-announced
spot check as a management tool is limited. Unannounced statistical samples
are more appropriate for measuring the implementation of internal controls.
More importantly, we believe that the OSD should set a strong example within
the DoD for emphasis on inventory control and security. The Director’s
concerns regarding the need for further analysis are noted, but the Deputy
Secretary of Defense and the Assistant Secretary of Defense (Command,
Control, Communications, and Intelligence) have already concurred with the
recommendation and with the need to improve inventory control.

Under Secretary of Defense for Policy Comments. The Director, Policy
Automation, Office of the Deputy Under Secretary of Defense Policy Support,
expressed concerns regarding problems with the conduct of the audit that may
have contributed to erroneous conclusions, raising a question about the
credibility of the audit. The Director offered to have us review worksheets that
detailed the errors. Further, the Director had concerns with several of the
recommendations in the report. Specifically, the Director stated that a single
system to control all OSD equipment is not reasonable and that it is impossible
to physically inventory everything at one snapshot in time in a “wall-to-wall”
inventory. The Director further stated that hand receipting all users may result
in a loss of control and establishment of a single point of entry for the OSD
would compound the problems of tracking procurement actions to delivery
orders.

Audit Response. We accepted the Director’s offer to review the worksheets of
his staff. The worksheets and associated analysis did not refute the facts and
conclusions as presented in our report. The recommendations with which the
Director disagrees were made to another OSD component and the Deputy
Secretary of Defense has previously directed implementation of the
recommendations.




                                     9
Appendix A. Audit Process

Scope
    Work Performed. This audit focused on whether information technology
    equipment in the possession of the Office of the Secretary of Defense is
    adequately managed. The WHS provided a copy of the ITE inventory database
    that contained 33,889 inventory records as of October 2, 2000. We statistically
    selected 635 items from the database for review. In addition, we judgmentally
    selected 635 items from the locations visited for review. We reviewed the
    procedures for recording and reporting ITE inventory data. We conducted our
    review at the offices of the Secretary of Defense within the Washington
    Metropolitan area. See Appendix C for a list of the offices visited.

    DoD-Wide Corporate-Level Government Performance and Results Act
    (GPRA) Coverage. In response to the GPRA, the Secretary of Defense
    annually establishes DoD-wide corporate level goals, subordinate performance
    goals, and performance measures. This report pertains to achievement of the
    following objectives and goal, subordinate performance goal, and performance
    measure.

        • FY 2001 DoD Corporate-Level Goal 2: Prepare now for an uncertain
          future by pursuing a focused modernization effort that maintains U.S.
          qualitative superiority in key warfighting capabilities. Transform the force
          by exploiting the Revolution in Military Affairs, and reengineer the
          Department to achieve a 21st century infrastructure. (01-DoD-02)

        • FY 2001 Subordinate Performance Goal 2.3: Streamline the DoD
          infrastructure by redesigning the Department’s support structure and
          pursuing business practice reforms.

        • FY 2001 Subordinate Performance Goal 2.5: Improve DoD financial
          and information management. (01-DoD-2.5)

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the Information Management and Technology high-risk area.

Methodology
    Use of Computer-Processed Data. To achieve the audit objective, we
    extensively relied on computer-processed data from WHS inventory database
    and databases from various OSD components when available. The results of
    our data testing showed an error rate that casts doubt on the data accuracy.
    However, when the data are reviewed in context with other available evidence,
    we believe that the opinions and conclusions in this report are valid.

                                        10
    Audit Type, Dates, and Standards. We performed this economy and
    efficiency audit from October 2000 through January 2001 in accordance with
    auditing standards issued by the Comptroller General of the United States, as
    implemented by the Inspector General, DoD. We included tests of management
    controls considered necessary.

    Potential Security Violations. We referred two potential security violations to
    the cognizant security offices for action.

    Contacts During the Audit. The organizations contacted during the audit are
    listed in Appendix C.

Statistical Sampling Methodology
    Sampling Purpose. The purpose of the statistical sampling plan was to estimate
    the number of items missing from or not properly recorded in the information
    technology equipment database.

    Universe Represented. WHS provided a database of information technology
    equipment as of October 2, 2000. The database consisted of 33,889 items with
    a total value of $99.8 million.

    Sampling Design. The sampling design used to determine whether or not items
    were missing from or whether or not items were properly recorded in the
    information technology equipment database was a stratified attribute design. We
    divided the population into two strata: a census strata, which consisted of the
    five largest data processing installation identifier codes, and an all other strata.
    The census strata contained 72 percent of the items. A random sample of 105
    items was selected for review from each of the five data processing installation
    identifier codes that made-up the census strata. From all other strata, 110 items
    were randomly selected for review.

    Sample Results. We derived the following statistical estimates from the
    information technology equipment database:

                   Missing Items and Data Errors Statistical Bound
                          (95 Percent Confidence Intervals)

                         Lower Bound          Point Estimate        Upper Bound

     Items Missing           2,049                2,790                 3,531

     Data Errors             6,714                7,859                 9,004




                                        11
Management Control Program Review
    DoD Directive 5010.38, “Management Control Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program
    Procedures,” August 28, 1996, require DoD organizations to implement a
    comprehensive system of management controls that provides reasonable
    assurance that programs are operating as intended and to evaluate the adequacy
    of the controls.

    Scope of Review of Management Control Programs. We reviewed the
    adequacy of management controls over procedures to ensure that ITE is
    accurately recorded and reported. We did not assess management’s self-
    evaluation of those controls.

    Adequacy of Management Controls. We identified material management
    control weaknesses at the OSD as defined by DoD Instruction 5010.40. Weak
    management controls at OSD components were exhibited by the lack of a
    centralized process for receiving, controlling, and disposing of ITE. No single
    official was responsible for control and management of ITE. Responsibilities
    for ITE policies and procedures were divided among many offices, and
    individuals were not made clearly responsible for the security and control of
    equipment assigned to them. A copy of the report will be provided to the
    Director, Administration and Management, who is responsible for management
    controls in the OSD.



Prior Coverage
    The Inspector General, DoD, issued one investigation report relating to OSD
    ITE issues, “Allegations of Breaches of Secretary of Defense, Dr. John M.
    Deutch, Former Deputy Secretary of Defense and Former Under Secretary of
    Defense for Acquisition and Technology,” August 28, 2000




                                       12
Appendix B. Deputy Secretary of Defense
            Responses to the Inspector General,
            DoD, Preliminary Findings and
            Recommendations




                      13
14
15
Appendix C. Component Organizations of the
            Office of the Secretary of Defense
            Visited During the Audit
    We conducted our review at the following offices of the Secretary of Defense
    within the Washington Metropolitan area:

    Under Secretary of Defense

    •   Under Secretary of Defense for Policy

    •   Under Secretary of Defense for Acquisition, Technology, and Logistics

    •   Under Secretary of Defense (Comptroller)

    •   Under Secretary of Defense for Personnel and Readiness

    Assistant Secretary of Defense

    •   Assistant Secretary of Defense (Legislative Affairs)

    •   Assistant Secretary of Defense (Health Affairs)

    •   Assistant Secretary of Defense (Public Affairs)

    •   Assistant Secretary of Defense (Reserve Affairs)

    •   Assistant Secretary of Defense (Command, Control, Communications, and
        Intelligence)

    Other OSD Organizations

    •   Assistant to the Secretary of Defense (Intelligence Oversight)

    •   Assistant to the Secretary of Defense (Executive Secretariat)

    •   Defense Acquisition University

    •   DoD Joint Defense Total Asset Visibility Office

    •   Office of Economic Adjustment

    •   Strategic Environmental Research and Development Program

    •   Space Architecture

    •   Test Systems Engineering and Evaluation

                                         16
•   Information Technology Directorate

•   Director, Program Analysis and Evaluation

•   General Counsel

•   Director, Operations Test and Evaluation

•   Office of the Special Assistant for Gulf War Illnesses

•   Director, Administration and Management

•   Enterprise Support Organization

•   Air Force Pentagon Communication Agency (OSD Support)

•   Defense Supply Service – Washington (OSD Support)




                                    17
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
  Director, Program Analysis and Evaluation
Under Secretary of Defense for Personnel and Readiness
  Assistant Secretary of Defense (Health Affairs)
  Assistant Secretary of Defense (Reserve Affairs)
Under Secretary of Defense for Policy
Assistant Secretary of Defense (Command, Control, Communications, and Intelligence)
Assistant Secretary of Defense (Legislative Affairs)
Assistant Secretary of Defense (Public Affairs)
Assistant to the Secretary of Defense (Intelligence Oversight)
General Counsel
Director, Administration and Management
Director, Operational Test and Evaluation

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Washington Headquarters Services




                                          18
Non-Defense Federal Organizations and Individuals
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                         19
Assistant Secretary of Defense (Command,
Control, Communications, and Intelligence)
Comments




                   21
Washington Headquarters Services   Final Report
                                    Reference
            Comments




                                   Revised




                  22
     Final Report
      Reference




23
Under Secretary of Defense for Policy
Comments




                    24
25
Audit Team Members
The Finance and Accounting Directorate, Office of the Assistant Inspector General for
Auditing, DoD, prepared this report. Personnel of the Office of the Inspector General,
DoD, who contributed to the report are listed below.

F. Jay Lane
Salvatore D. Guli
Charles J. Richardson
Walter R. Loder
Adrienne B. Brown
Michael L. Davitt
Bryan K. Kitchens
Linh Truong
Barry D. Gay
Walter J. Gaich
John W. Wright
Charles A. Mordecai
Alejandra Rodriguez
Lusk Penn
